Cause No. I4-CR-2877-83-2
r EX PARTE
1
JOSEPH BOURGEOIS

§

IN THE DISTRICT COURT OF

§

GALVESTON COUNTY, TEXAS
56th JUDICIAL DISTRICT

§

STATE’S ANSWER TO APPLICATION FOR
POST-CONVICTION WRIT OF HABEAS CORPUS
The State of Texas, by and through the Criminal District Attorney for
Galveston County, Texas, files this answer in response to the habeas application
filed by Applicant on April 13, 2021.
1. Procedural history
In Cause No. 14-CR-2877, Applicant was charged by indictment wi,th the
offense of intoxication manslaughter. In Cause No. 15-CR-1476, he was charged
t
** ■**

•.

by indictment with the offenses of intoxication assault (Count I) and aggravated
assault (Count II). On January 25, 2016, Applicant entered negotiated pleas of
guilty to the charges of intoxication manslaughter in Cause No. 14-CR-2877 and

f

intoxication assault in Cause No. 15-CR-1476. The charge of aggravated assault
(Count II in Cause No. 15-CR-1476) was dismissed. On that same date, the trial
court, in each case, entered a deadly weapon finding and sentenced Applicant to
imprisonment for a term of 15 years.

1

\

On April 13, 2021, Applicant filed the instant habeas application, which is a
subsequent application. The instant application challenges Applicant’s conviction
for intoxication manslaughter in Cause No. 14-CR-2877. This application does not
purport to challenge the conviction for intoxication assault in Cause No. 15-CR1476.

2. General denial
The State generally denies each and every allegation in Applicant’s habeas
application.
3. Applicant’s claims are barred bv Section 4
%

Consideration of the claims in Applicant’s subsequent habeas application is
t

barred by Section 4 of Article 11.07. See Tex. Code Crim. Proc. art. 11.07, § 4(a).
The legislative intent underlying Section 4 was to limit a person filing a habeas
application under Article 11.07 to “one bite at the apple.” Ex parte Torres, 943
S.W.2d 469, 474 (Tex. Crim. App. 1997). Section 4 provides, inter alia, as
•- -r if

follows:
Sec. 4. (a) If a subsequent application for writ of habeas corpus is
filed after final disposition of an initial application challenging the
same conviction, a court may not consider the merits of or grant relief
based on the subsequent application unless the application contains
sufficient specific facts establishing that:
(1) the current claims and issues have not been and could not have
been presented previously in an original application or in a
previously considered application filed under this article because

2

the factual or legal basis for the claim was unavailable on the date
the applicant filed the previous application; or
(2) by a preponderance of the evidence, but for a violation of the
United States Constitution no rational juror could have found the
applicant guilty beyond a reasonable doubt.
Tex. Code Crim. Proc. art. 11.07, § 4(a).
Thus, unless the subsequent habeas application establishes the applicability
of an exception, Section 4 bars consideration of that application “after final
disposition of an initial application challenging the same conviction.” Tex. CODE
Crim. Proc. art. 11.07, § 4(a). A “final disposition” of an initial writ is one that
“entailfs] a disposition relating to the merits of all the claims raised.” Torres, 943
S.W.2d at 474.
<

.

e

Here, the Court’s file reflects that Applicant filed his initial post-conviction*
,

habeas application, in Cause No. 14CR2877-83-1, on July 8, 2016. That
application asserted multiple claims of ineffective assistance of counsel as well as
a claim of actual innocence. On September 21,2016, the initial application was
4

denied by the Court of Criminal Appeals without written order. The denial of that
initial application signifies that the Court of Criminal Appeals considered and
rejected the merits of the claims asserted therein. See Torres, 943 S.W.2d at 472
(“In our writ jurisprudence, a ‘denial’ signifies that we addressed and rejected the
merits of a particular claim while a ‘dismissal’ means that we declined to consider
•the-daim-for-reasons unrelated to the claim’s merits.”).
3

The instant habeas application does not contain specific facts sufficient to
establish that the current claims could not have been presented previously because
the factual or legal basis for the claim was unavailable when the earlier application
was filed. See Tex. CodeCrim. Proc. art. 11.07, § 4(a)(1). Nor dloes the instant
application contain specific facts sufficient to establish, by a preponderance of the ^
evidence, that no rational juror could have found the applicant guilty beyondji
reasonable doubt. See id., art. 11.07, § 4(a)(2).
All five of the grounds in the instant habeas application purport to assert
claims of unreasonable search and/or seizure. Applicant suggests that the legal
basis underlying those claims was unavailable during his initial habeas proceeding
(

and that those claims therefore could not have been presented in his initial
,

t

application. See Appl. 4 (citing Reyes-Requena v. United States, 243 F. 3d 893 (5th
Cir. 2002)). However, Applicant’s contention lacks merit. It is readily apparent that
the prohibition against unreasonable searches and seizures was in place long before
4

the denial of the initial habeas application. See, e.g., U.S. Const., Amend. IV.
Applicant appears to argue, in his fifth ground, that article 42.12, section 3g
has been repealed and that he was therefore convicted of “a nonexistent crime.’’
Appl. at 15; see former Tex. Code Crim. Proc. art. 42.12, § 3g (captioned
“Limitation on Judge Ordered Community Supervision”). However, that argument
lacks merit for the simple reason that the statute has simply been re-codified as
4

Texas Code of Criminal Procedure article 42A.054. See Act of June 17, 2015, 84th
Leg., R.S., ch. 770, §1.01,2015 Tex. Gen. Laws 2321,2321-65; Tex. CodeCrim.
Proc. Art. 42A.054 (captioned “Limitation on Judge Ordered Community
Supervision”). This non-substantive change in the statutory scheme has no bearing
on the question of whether Applicant’s claims are barred by Section 4.
4, Applicant’s claims are not cognizable because they could have been
raised on direct appeal
If this Court reaches the merits of the claims asserted in the instant habeas
application, the court should find that none of those grounds is cognizable. See Ex
parte Aubin, 537 S.W.3d 39, 42 n.3 (Tex. Crim. App. 2017) (“Because
cognizability is a merits question for the purpose of § 4, we must consider,

\

the § 4 bar before considering a cognizability question.”).
Habeas corpus is an extraordinary remedy and is available only when there
is no other adequate remedy at law. Ex parte Cmzata, 220 S.W.3d 518, 520 (Tex.
Crim. App. 2007). Consequently, habeas corpus may not be used to assert claims
that could have been asserted on direct appeal. Id.-, see Ex Parte McGowen, 645
S.W.2d 286, 288 (Tex. Crim. App. 1983) (“The purpose of a writ of habeas corpus
is to determine the lawfulness of confinement; it is not a substitute for appeal.”). In
particular, a claim challenging the legality of a search or seizure is forfeited by the
applicant’s failure to raise that claim on direct appeal. Ex parte Grigsby, 137
S.W.3d 673, 674 (Tex. Crim. App. 2004).
5

In the instant proceeding, Applicant’s habeas application sets forth five
grounds, each of which purports to assert a claim of unreasonable search or
seizure. See Appl. 6-15. Each such claim could have been raised at the trial level
and then, if rejected by the trial court, asserted on direct appeal. However, because
N

Applicant did not pursue a direct appeal none of those__c.laims. is cognizable here.
See Grigsby, 137 S.W.3d 673, 674.
5. There is no need to expand the record in this case
The record before this Court is sufficient to enable the Court to resolve this
matter. Thus, there is no need for the Court to issue any order designating issues of
fact or for the Court to convene any fact-finding hearing.
\

PRAYER
WHEREFORE, the State prays that this Court find that there are no
controverted, previously unresolved issues of fact material to the disposition of
Applicant’s habeas application; that all of Applicant’s claims are barred by Texas
Code of Criminal Procedure article 11.07, section 4; and that none of Applicant’s
claims is cognizable because each such claim could have_been raised on direct
appeal. The State prays, further, that the Court recommend to the Texas Court of
Criminal Appeals that the instant habeas application be dismissed.

6

Respectfully submitted,
JACK ROADY
Criminal District Attorney
/s/ M. Scott Taliaferro
M. SCOTT TALIAFERRO
Assistant Criminal District Attorney
Texas Bar No. 00785584
600 59th Street, Suite 1001
Galveston, Texas 77551
Email: michael.taliaferro@galvestoncountytx.gov
Phone: (409) 766-2355
Fax:(409)765-3132
CERTIFICATE OF COMPLIANCE
Pursuant to Texas Rule of Appellate Procedure 73.3,1 hereby certify, based
on the computer program used to generate this document, that this document
contains 1,324 words.
/s/ M. Scott Taliaferro
M. SCOTT TALIAFERRO

7

!

CERTIFICATE OF SERVICE
I hereby certify that, on this 28th day of April, 2021, a copy of this Answer to
Application for Post-conviction Writ of Habeas Corpus was served on Applicant
by e-file service or by sending via certified mail a true and correct copy of this
instrument to Applicant at the following address:
Joseph Bourgeois
TDCJ #02048808
Beauford H. Jester III Unit
3 Jester Road
Richmond, TX 77406
/s/ M. Scott Taliaferro
M. SCOTT TALIAFERRO
V Vi J

8

Cause No. 14-CR-2877-83-2
EX PARTE

JOSEPH BOURGEOIS

§

IN THE DISTRICT COURT OF

§

GALVESTON COUNTY, TEXAS

§

56th JUDICIAL DISTRICT

FINDINGS OF FACT. CONCLUSIONS OF LAW. RECOMMENDATION.
AND ORDER TO TRANSMIT HABEAS CORPUS RECORD
(POST CONVICTION APPLICATION)
ON THI S

, came on to be

day of

considered the application for writ of habeas corpus in the above cause. The Court
makes the following findings of fact and conclusions of law:
1. There are no controverted, previously unresolved issues of fact that
are material to the disposition of Applicant’s application for writ of
habeas corpus.'
v \.
*
2. The instant habeas application is a subsequent application. All of
the claims asserted in that application are barred by Texas Code of
Criminal Procedure article 11.07, section 4.
3. None of the claims in Applicant’s habeas application is cognizable
because each such claim could have been raised on direct appeal.
, On the basis of the foregoing finding and conclusions, this Court
recommends to the Texas Court of Criminal Appeals that Applicant’s application
be DISMISSED.
The Court hereby ORDERS that the District Clerk of Galveston County
prepare and transmit the record herein to the Texas Court of Criminal Appeals.

JUDGE PRESIDING
l

John D. Kinard
DISTRICT CLERK

GALVESTON COUNTY, TEXAS
League City Office
174 Calder Rd.
League City, TX 77573
Phone (281)316-8729
Fax (281) 316-8740

Galveston Office
600 59th Street, RM 4409
Galveston, TX 77551-2388
Phone(409)766-2424
Fax (409)766-2292

Joseph Montrel Bourgeois TDC# 2048808
Jester III Unit
3 Jester Road
Richmond, Texas 77406

3

6/3/2021
(
IN RE: JOSEPH JR BOURGEOIS
Cause Number 14-CR-2877-83-2

Dear JOSEPH JR BOURGEOIS
Please find a copy of the notification to this office that the court of criminal
appeals of the state of Texas has dismissed without written order your application for
writ of habeas corpus.
Sincerely,
John D. Kinard
District Clerk
Galveston, County, Texas

By: Terrie Kahla, Deputy

/

OFFICIAL NOTIcn FROM COURT OF CRIMINAL APPEALS OF TEXAS F,LE (:OPY
P.O. BOX 12308. CAPI TOL STATION. AUSTIN. TEXAS 78711

<

6/2/2021
BOURGEOIS, JOSEPH MONTREL Tr. Ct No. 14-CR-2877-83-2 WR-85,655-03
The Court has dismissed without written order this subsequent application for a writ
of habeas corpus. TEX. CODE CRIM. PROC. Art. 11.07, Sec. 4(a)-(c).
Deana Williamson, Clerk
j-

JOSEPH MONTREL BOURGEOIS
JESTER III UNIT - TDC # 2048808
3 JESTER ROAD
RICHMOND. TX 77406

/

TfisssiTnSsr

FILK COPY

<

r!rn9i^Rf5s-T£v rnnC r'°*M PROP Art 11.07, Sec. 4(a)-(cV

of habeas corpus: i tx. CODt

......................

oeana vviamson. Clerk

DISTRICT CLERK GALVESTON COUNTY
JOHN KINARD
600 59TH ST. SUITE 4001
GALVESTON, TX 77551
* DELIVERED VIA E-MAIL *

Oi

S8S1
2
I
8
a

s3

8
2
s.

I

-a®

i.

c \\^

